  ~EAMTRAK
      NATIONALRAILROAD
      PASSENGER CORPORATION
                                          Office of Inspector General



Memorandum
To:           Gerald Sokol, Jr.
              Chief Financial Officer
                              C   j~~I""
From:         David R. Warre~
              Assistant Inspector General, Audits

Date:         May 5,2014

Subject:      Engagement Memo - Review of Reservation Ecosystem Next Generation
              Program (Project Code 010-2014)

The Office of Inspector General is initiating an audit of the company's Reservation
Ecosystem Next Generation (Res-NG) program. The objective of this audit is to assess
the planning, development, and oversight of the Res-NG program focusing on the areas
of cost, schedule, and performance.

During this audit, we plan to interview company personnel, particularly from the
Information Technology, Marketing, Operations, and Finance departments, and analyze
documents and data associated with the program. Requests for documents will be made
as our work progresses. We will work to minimize the impact by coordinating
interviews and observations with staff in advance.

Our work will be performed in accordance with Generally Accepted Government
Auditing Standards. Our interactions with the company will be consistent with P/I2.1.3
which sets forth the relationship between the OIG and the company. In particular,
section 7.0 of the policy discusses coordination between Amtrak officials and the IG on
audits and evaluations. P/I2.1.3 can be found at
http://wiki.corp.nrpc/download/attachments/3586/0IG=Relationship+Policy+111101.pdf
?version=l

                       10 G Street, NE, 3W-300, Washington, D .C. 2002
                         202-906-4600/ Fraud Hotline 800-468-5469
We request that your office arrange an entrance conference for us with the appropriate
Amtrak officials at the earliest possible date. We will keep you advised of the status of
our work and any material changes in our audit objectives.

Dan Haigler will be the Audit Manager for this project and will report to Vipul Doshi,
Senior Director, Audits. If you have questions, please contact me at 202-906-4742 or by
email at David.Warren@amtrakoig.gov , or Vipul Doshi at 202-906-4619 or by email at
Vipul.Doshi@amtrakoig.gov.


cc:   DJ Stadtler, Vice President, Operations
      Jason Molfetas, Chief Information Officer
      Matthew Hardison, Chief Marketing and Sales Officer
      William Herrmann, Deputy Managing General Counsel
      Matthew Gagnon, Senior Director, Business Process and Management Control
      Melantha Paige, Senior Audit Liaison




                       10 G Street, NE, 3W-300, Washington, D.C. 2002
                         202-906-4600/ Fraud Hotline 800-468-5469
